r
Supreme Court, U.S
FILED
fU*

DEC 2 i 2U2U
OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES
PETITIONER

SKIP LEE HANSEN, pro se
v.
COMMONWEALTH OF KENTUCKY

RESPONDENT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner asks leave to file the attached petition for a writ of certiorari without
prepayment of costs and to proceed in forma pauperis. Petitioner has previously been
granted leave to proceed in forma pauperis in the Kentucky Court of Appeals.
Pursuant to Rule 39 the McCracken Circuit Courts Order Granting In Forma
Pauperis status is attached.

Respectfully submitted,

Skip Lee Hansen, Petitioner, Pro se
Roederer Correctional Complex
P.O. Box 69
LaGrange, KY 40031
(502) 222-0173

received

m -7 2021
9r,ggpEM°FFcToHuERT!51

COMMONWEALTH OF KENTUCKY
McCracken circuit court
INDICTMENT NO. 18-CR-00221
DIVISION NO: I

ENTERED
^JAN H 2019
ICCRACKEN CIRCUIT COURT
PADUCAH, KENTUCKY-

SKIP HANSEN
VS.

APPELLANT

ORDER GRANTING IN FORMA PAUPERIS
STATUS, APPOINTING COUNSEL. AND ORDERING CLERK
TO PREPARE VIDEO RECORD
* ?.

\

COMMONWEALTH OF KENTUCKY

:»<

APPELLEE

The defendant has moved the Court for an Order to prosecute the appeal of his criminal
•*

conviction in forma pauperis, and it appears that the Defendant is a pauper within the meaning of
K.R.S. 453.190 and K.R.S. 31.110(2)(b).
IT IS HEREBY ORDERED AND ADJUDGED that the Defendant may prosecute this
appeal without payment of costs and that the Department of Public Advocacy is appointed to
represent the Defendant on appeal.
Under my hand this the H- day of January, 2019.

r

i.

HON. TIMOTHY KALTENBACH
JUDGE, McCRACKEN CIRCUIT COURT

Copies to:

Hon. Dan Boaz (Commonwealth Attorney)
Hon. John Straub (DPA)
DPA Appeals, 5 Mill Creek Park, Frankfort, KY 40601

‘S7Z?

inn

.

